No. 20 - 32
In The

Supreme Court of the United States
STEVE MORSA,
Petitioner
v.

ANDRE IANCU, Director,
U.S. PATENT AND TRADEMARK OFFICE,
Respondent
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR REHEARING
Steve [Morsa
(PCKB 1996
Thousand Oahs,
d91358
(805)495-5025
stevemorsa@cs. com
(pro Se

OCTOBER 2020

RECEIVED
OCT 1 6 2020

PETITION FOR REHEARING
Pursuant to Rule 44.2 of the Rules of the United States Supreme Court, Petitioner
respectfully petitions for rehearing of this Court’s October 5, 2020 Order denying
the petition for a writ of certiorari.
REASON FOR GRANTING THE PETITION FOR REHEARING
Constitutional Challenge to Administrative Patent Judges
Rule 44.2 of the Rules of the Supreme Court of the United States allows petitioners
to file petitions for rehearing of the denial of a petition for writ of certiorari and
permits rehearing on the basis of “intervening circumstances of a substantial or
controlling effect or to other substantial grounds not previously presented.'1'’
Here, a substantial ground not previously presented warrants a rehearing. Briefly
and distinctly, on this date this Court granted certiorari in three cases involving
critically important questions concerning the constitutional status of
Administrative Patent Judges (APJs): United States v. Arthrex, Inc., No. 191434; Smith & Nephew, Inc. v. Arthrex, Inc., No. 19-1452; and Arthrex, Inc. v.
Smith & Nephew, Inc., No. 19-1458.
As the Federal Circuit record below reflects, though instant Petitioner timely and
correctly raised this very same constitutional challenge with the Federal Circuit
(Appendix One), Petitioner was nevertheless incorrectly and unjustly denied relief
(Appendix Two).
Rehearing is accordingly warranted.
Which rehearing is respectfully requested this 13th day of October, 2020.

Steve Morsa

No. 20-32

IN THE
SUPREME COURT OF THE UNITED STATES

Steve Morsa,
Petitioner,
v.
Andreu Iancu, Director,
U.S. Patent and Trademark Office
Respondent.

RULE 44.2 CERTIFICATE
Pursuant to Rule 44.2, the undersigned hereby certifies that the attached
petition for rehearing of an order denying writ of certiorari is restricted to the
grounds specified in Rule 44.2: it is limited to intervening circumstances of a
substantial or controlling effect or to other substantial grounds not previously
presented. Petitioner further certifies that the attached petition is presented in good
faith and not for delay.
By:
Steve Morsa
POB 1996
Thousand Oaks, CA 91358
Telephone: 805.495.5025
Email: stevemorsa@cs.com

Case: 19-1757

Document: 20

Page: 1

Filed: 11/05/2019

UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

In re: STEVE MORSA,
Appellant

2019-1757

APPELLANT’S MOTION TO VACATE AND REMAND
DUE TO NEW AUTHORITY

A. RELIEF SOUGHT
Appellant moves the Court Pursuant to Federal Rule of Appellate Procedure
27 and Federal Circuit Rule 27(f) for an order vacating and remanding the case to
the Board.
B. GROUNDS FOR THE REQUESTED RELIEF
On October 31, 2019, this Court issued its opinion in Arthrex, Inc. v. Smith
& Nephew, Inc., No. 2018-2140, 2019 U.S. App. LEXIS 32613. Arthrex addressed
the constitutionality of the appointment of the Board’s Administrative Patent
Judges (“APJs”). This Court held:

1

Case: 19-1757

Document: 20

Page: 2

Filed: 11/05/2019

[TJhat APJs are principal officers under Title 35 as currently
constituted. As such, they must be appointed by the President
and confirmed by the Senate; because they are not, the current
structure of the Board violates the Appointments Clause.

Id. at *27. In addressing this infirmity, the Court applied a narrow remedy and
severed the statutory removal provisions as applied to APJs, thereby rendering
APJs inferior rather than principal officers of the United States. Id. at *34. Next,
“[b]ecause the Board’s [final written] decision was made by a panel of APJs that
were not constitutionally appointed at the time of the decision was rendered, [the
Court] vacate[d] and remand[ed] the Board’s decision without reaching the
merits.” Id. at *36. The Court further explained that for cases in which “the final
decision was rendered by a panel of APJs who were not constitutionally appointed
and where the parties presented an Appointments Clause challenge on appeal, [the
case] must be vacated and remanded.” Id. at *39. This Court determined that a new
PTAB panel of APJs must be assigned to such cases. Id. at *40.
Appellant hereby raises a challenge to the constitutionality of the
Appointments Clause for the APJs assigned to Ex parte Steve Morsa (Appeal
2018-004483, App. No. 13/694,192). At the time of the final decision in this case,
these APJs were principal officers of the United States who were not appointed by
the President and confirmed by the Senate.

2

Case: 19-1757

Document: 20

Page: 3

Filed: 11/05/2019

Because these APJs were not properly appointed and confirmed, the APJs
lacked the constitutional authority to issue a final decision in this case.
C. PRO SE APPELLANT’S ARGUMENT IS TIMELY
While it is true that Federal Appellate Courts do not generally consider
issues not passed upon below or entertain arguments not presented to a lower
tribunal (Mr. Morsa has already filed his opening brief); in the precedential Hylete
LLc, v. Hybrid Athletics, LLC (Case 17-2057, p.7), the Court recently again
confirmed that exceptions are made in cases where, as here, an Appellant is pro se:
We have articulated limited circumstances in which considering
arguments made for the first time on appeal is appropriate: (1)
“[w]hen new legislation is passed while an appeal is pending,
courts have an obligation to apply the new law if Congress intended
retroactive application even though the issue was not decided or
raised below”; (2) “when there is a change in the jurisprudence of
the reviewing court or the Supreme Court after consideration of the
case by the lower court”; (3) “appellate courts may apply the
correct law even if the parties did not argue it below and the court
below did not decide it, but only if an issue is properly before the
court”; and (4) “where a party appeared pro se before the lower
court, a court of appeals may appropriately be less stringent in
requiring that the issue have been raised explicitly below.”
Golden Bridge, 527 F.3d at 1322-23 (quoting Forshey v. Principi,
284 F.3d 1335, 1353-57 (Fed. Cir. 2002)). [emphasis provided]

3

Case: 19-1757

Document: 20

Page: 4

Filed: 11/05/2019

D. CONCLUSION
For the reasons stated herein; and though Appellee surprisingly opposes this
constitutional authority restoring motion; it is accordingly respectfully requested
that this Court vacate and remand this case to the PTAB with an order to empanel a
new Board of APJs in accordance with its decision in Arthrex.
Because this motion “if granted, would terminate the appeal,” Appellant
respectfully requests that the time for Appellee to serve and file Appellee’s
response brief (currently due November 12th, 2019; given that the 40th day from
October 1st, 2019 falls on a Saturday) and Appellant’s reply brief (currently due 14
days after service of Appellee’s response brief) both be suspended. See Fed. Cir. R.
31(c).

November 5th, 2019
Respectfully submitted,
/s/ Steve Morsa
Steve Morsa,
Appellant / Inventor
POB 1996
Thousand Oaks, CA 91358
805.495.5025
stevemorsa@cs.com

4

Case: 19-1757

Document: 25

Page: 1

Filed: 11/25/2019

NOTE: This order is nonprecedential.

®niteb States Court of Appeals:
for tlje Jfebetal Circuit
In re: STEVE MORSA,
Appellant

2019-1757

Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. 13/694,192.

ON MOTION

Per Curiam.
ORDER
Steve Morsa moves this court for an order vacating
and remanding this appeal to the Patent Trial and Appeal
Board in view of this court’s recently issued opinion in
Arthrex, Inc. v. Smith & .Nephew, Inc., No. 2018-2140,
2019 WL 5616010 (Fed. Cir. Oct. 31, 2019).3 The Director
of the United States Patent and Trademark Office oppos­
es. Mr. Morsa replies.
The court concludes that the Appointments Clause
challenge in this case was forfeited. See Customedia
Techs., LLC u. Dish Network Corp., No. 2018-2239 et al.,
2019 WL 5677703 (Fed. Cir. Nov. 1, 2019). Mr. Morsa’s
motion is therefore denied.

Case: 19-1757

Document: 25

Page: 2

2

Filed: 11/25/2019

IN RE: MORSA

Accordingly,
It Is Ordered That:
(1) The stay of the briefing schedule is lifted.
(2) Mr. Morsa’s motion is denied.
(3) The Director’s response brief is due within 30
days of the date of filing of this order.
For the Court
November 25. 2019
Date

s28

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

